<html>
<title> - SUBCOMMITTEE HEARING ON PLAIN LANGUAGE IN PAPERWORK - THE BENEFITS TO SMALL BUSINESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                        SUBCOMMITTEE HEARING ON
                     PLAIN LANGUAGE IN PAPERWORK -
                     THE BENEFITS TO SMALL BUSINESS

=======================================================================

               SUBCOMMITTEE ON CONTRACTING AND TECHNOLOGY
                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2008

                               __________

                          Serial Number 110-73

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                    U.S. GOVERNMENT PRINTING OFFICE
40-233                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


HEATH SHULER, North Carolina         STEVE CHABOT, Ohio, Ranking Member
CHARLIE GONZALEZ, Texas              ROSCOE BARTLETT, Maryland
RICK LARSEN, Washington              SAM GRAVES, Missouri
RAUL GRIJALVA, Arizona               TODD AKIN, Missouri
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               MARILYN MUSGRAVE, Colorado
HENRY CUELLAR, Texas                 STEVE KING, Iowa
DAN LIPINSKI, Illinois               JEFF FORTENBERRY, Nebraska
GWEN MOORE, Wisconsin                LYNN WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          LOUIE GOHMERT, Texas
BRUCE BRALEY, Iowa                   DAVID DAVIS, Tennessee
YVETTE CLARKE, New York              MARY FALLIN, Oklahoma
BRAD ELLSWORTH, Indiana              VERN BUCHANAN, Florida
HANK JOHNSON, Georgia
JOE SESTAK, Pennsylvania
BRIAN HIGGINS, New York
MAZIE HIRONO, Hawaii

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                                 ______

               Subcommittee on Contracting and Technology

                      BRUCE BRALEY, IOWA, Chairman


HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee, Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              SAM GRAVES, Missouri
JOE SESTAK, Pennsylvania             TODD AKIN, Missouri
                                     MARY FALLIN, Oklahoma

        .........................................................

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Braley, Hon. Bruce...............................................     1
Davis, Hon. David................................................     3

                               WITNESSES


PANEL I:
Cox, Hon. Christopher, Chairman, U.S. Securities and Exchange 
  Commission.....................................................     4

PANEL II:
Romasco, Mr. Robert, AARP........................................    10
McCracken, Mr. Todd, National Small Business Association.........    11
Hall, Mr. Keith, National Association for the Self-Employed......    13
Cheek, Dr. Annetta, Center for Plain Language....................    15
Grundmeyer, Ms. Christine, Auxi Health Services, on behalf of the 
  National Association for Home Care and Hospice and the Iowa 
  Alliance in Home Care..........................................    18

                                APPENDIX


Prepared Statements:
Braley, Hon. Bruce...............................................    31
Davis, Hon. David................................................    33
Cox, Hon. Christopher, Chairman, U.S. Securities and Exchange 
  Commission.....................................................    34
Romasco, Mr. Robert, AARP........................................    40
McCracken, Mr. Todd, National Small Business Association.........    47
Hall, Mr. Keith, National Association for the Self-Employed......    51
Cheek, Dr. Annetta, Center for Plain Language....................    56
Grundmeyer, Ms. Christine, Auxi Health Services, on behalf of the 
  National Association for Home Care and Hospice and the Iowa 
  Alliance in Home Care..........................................    65

                                 (iii)

  


                     SUBCOMMITTEE HEARING ON PLAIN
                      LANGUAGE IN PAPERWORK - THE
                       BENEFITS TO SMALL BUSINESS

                              ----------                              


                       Tuesday, February 26, 2008

                     U.S. House of Representatives,
  Committee on Small Business, Subcommittee on Contracting 
                                             and Technology
                                                    Washington, DC.
    The Committee met, pursuant to call, at 2:00 p.m., in Room 
2360 Rayburn House Office Building, Hon. Bruce Braley [chairman 
of the Subcommittee] presiding.
    Present: Representatives Braley, Cuellar, Clarke and Davis.

              OPENING STATEMENT OF CHAIRMAN BRALEY

    Chairman  Braley. I call this meeting to order to address 
plain language in paperwork, the benefits to small business.
    I want to thank you all for coming today.
    Small businesses in this country are struggling in a flood 
of paper work, and the tide continues to rise. Both the volume 
and complexity of paper work is increasing, and it is hurting 
our nation's entrepreneurs.
    Communications from federal entities are often confusing 
and difficult for small businesses to understand. Agencies such 
as the Small Business Administration, the Internal Revenue 
Service and the Centers for Medicare and Medicaid Services have 
complicated forms and instructions that contribute to the paper 
work burden, which is costing entrepreneurs nearly $50 an hour. 
It doesn't have to be this way.
    If the goal of these communications is to produce results 
and establish guidelines, the government needs to account for 
the audience. Too often government bureaucrats issue these 
forms and paper work with no thought if anyone will be able to 
understand them. This growing problem exists not only at the 
federal level, but also at the state level as well.
    This has caused many states to take action, and they have 
successfully implemented plain language policies for their 
administrative communications. I believe that implementing a 
federal plain language policy could greatly reduce the burdens 
that small businesses face in dealing with this growing volume 
of paper work.
    Convoluted government communications place major burdens on 
small firms. According to the National Federation of 
Independent Businesses, small businesses cite unclear and 
confusing instructions as being the most common paperwork 
problem. That is one reason why I introduced H.R. 3548, the 
Plain Language in Government Communications Act. This 
legislation will reduce the paperwork burdens on small 
businesses by promoting clear communications from the federal 
government that entrepreneurs and the public can understand.
    The bill requires executive agencies to use plain language 
in any document relevant to obtaining a benefit or service, 
including a letter, publication, form, notice or instruction.
    On January 29th, the Subcommittee on Information, Police, 
Census and National Archives of the Government Oversight and 
Reform Committee reported the legislation favorably to the full 
Committee. The act requires the federal government to write in 
a clear manner that it follows the best practices of plain 
language writing.
    The federal plain language guidelines, which I hold in my 
hand, provide an outline for these best practices. Plain 
language applies to more than just words. It involves many 
aspects of documents, such as easy to read design features and 
logical organization.
    These changes mean those agencies that create the greatest 
burden must enact reforms. The IRS obviously is one of the top 
offenders. The complexity of IRS forms and instructions is 
costly for our nation's entrepreneurs. According to NFIB, the 
average cost of tax related paperwork and record keeping for 
small business per hour is $74.24. Small businesses are facing 
more tax forms, longer instructions, and tax returns that are 
increasingly complex.
    According to OMB, the IRS accounts for approximately 78 
percent of the total federal information collection burden. The 
use of plain language by the Internal Revenue Service could 
significantly reduce the burden that small businesses face in 
complying with tax regulations.
    Medicare is another area in which complexity is posing a 
problem. Doctors and other health care providers continue to 
struggle with increasingly complex medicare rules and 
regulation. GAO has reported that the information given out by 
CMS regarding these regulations is often difficult to use, out 
of date, inaccurate, and incomplete. According to GAO, Medicare 
bulletins to physicians are often poorly organized and contain 
dense legal language.
    It is apparent that convoluted language is harming U.S. 
competitiveness in a global economy. The most recent global 
competitiveness report issued by the world economic forum 
identified our nation's complex tax regulations as being the 
second most problematic factor for doing business in the United 
States.
     It is my hope that the use of plain language will reduce 
this problem. Small business owners do not have extensive 
resources to handle paper work. So any time they spend to 
wrestle with complex government forms and documents keeps them 
away from operating their businesses.
    Last year, OMB found that the overall national paperwork 
burden increased nearly 700 million hours from fiscal year 2005 
to fiscal year 2006 alone. The use of clear, easy to understand 
language in government paperwork could substantially reduce 
burdens on small businesses and provide for a more level 
playing field. The less time small businesses spend on 
paperwork, the more time they can dedicate to growing their 
business, creating job, and contributing to economic growth.
    I have been a passionate advocate of plain language 
drafting for 25 years. When I was a young lawyer just starting 
my practice, the Iowa Supreme Court adopted plain language 
requirements for use in jury instructions in the State of Iowa 
because they recognized that jurors hearing information about 
the legal rules they were to follow and apply to the facts of 
the case were having great difficulty understanding basic legal 
concepts.
    And I have spoken to young lawyers and aging lawyers for 25 
years about the need to communicate more effectively in both 
their written communications and their verbal communications. 
So this is a passion that I brought with me to Congress, and I 
am very, very excited to see the interest that this topic has 
created because I think it would have an enormous impact on 
reducing the cost to the federal government.
    So I would like to thank all of our witnesses today for 
coming to the Committee and sharing their views on this 
important issue, and I would like to yield at this time to my 
friend, Ranking Member Davis for his opening statement.

                 OPENING STATEMENT OF MR. DAVIS

    Mr.  Davis. Thank you, Mr. Chairman.
    Good afternoon. I would like to thank you, Chairman Braley, 
for holding this hearing. I appreciate the witnesses coming 
here to testify for us today. I will keep my opening remarks 
brief.
    I am sure there are people who have read the Federal 
Regulations and said, ``Gee, that is plain and easy to read.'' 
I am not one of those people. As a small business owner myself, 
I know first hand that a quick perusal of the Federal Register 
is enough to make a wooden man crazy.
    Federal agencies write thousands of regulations every year, 
and we are expected to comply with them. The sheet volume of 
regulations small businesses must comply with is a drain on the 
resources, and when those rules are written in complicated 
language, it only aggravates the situation.
    There have been many attempts to encourage the use of plain 
language in the federal government. However, it does not appear 
that any of them have been particularly successful. The 
information published by the federal government is supposed to 
be for the benefit of its citizens so that they can understand 
exactly what their government is doing.
    How can this be best achieved, by using Byzantine language 
as complicated sentence structures or by using plain language 
that is easy to understand? I am eager to hear the testimony of 
our witnesses. So I will end here.
    Thank you for being with us today to testify before the 
Committee.
    Chairman  Braley. And with that, I would like to welcome 
our first witness to the hearing, the Honorable Christopher 
Cox. Christopher Cox is the 28th Chairman of the Securities and 
Exchange Commission. He was appointed by President Bush on June 
2nd, 2005, and unanimously confirmed by the Senate on July 29th 
of 2005.
    During his tenure at the SEC, Chairman Cox has brought 
ground breaking cases against a variety of market abuses, 
including hedge fund insider trading, stock options backdating 
and securities scams on the Internet.
    Prior to joining the Security and Exchange Commission, 
Chairman Cox served for 17 years in Congress where he held a 
number of positions of leadership in the U.S. House of 
Representatives.
    Welcome home.

  STATEMENT OF THE HONORABLE CHRISTOPHER COX, CHAIRMAN, U.S. 
               SECURITIES AND EXCHANGE COMMISSION

    Mr.  Cox. Thank you very much, Mr. Chairman, Ranking Member 
Davis. It is a privilege to be here to testify on an issue that 
I, too, am passionate about.
    You are, of course, champions of small business here on 
this Committee, and with this topic in this area you have 
really hit the jackpot. There is nothing more important, Mr. 
Chairman, than reducing the cost for small business and for 
consumer customers. It is a great opportunity.
    The time and money that is wasted on translating legalese 
into plain English is dead weight economic loss. It benefits no 
one and it harms millions of consumers who pay for it.
    Of course, while you are leaders in this effort, you are 
not the first mavericks in Congress to take up the battle for 
clearly written legal rules. In fact, the very first reported 
appearance of the word ``gobbledygook'' was in 1944 when it was 
coined by a Congressman whose name was Maverick.
    [Laughter.]
    Mr.  Cox. U.S. Representative Maury Maverick was a Texas 
Democrat who wrote a memo that banned all ``gobbledygook 
language'' from his office. He said he made up the word to 
imitate the noise that a turkey makes.
    To show just how serious he was about plain English, he 
added in his memo, ``anyone using the words `activation' or 
`implementation' will be shot.
    [Laughter.]
    Mr.  Cox. At the SEC, we have more modest penalties in 
store both for our staff and for public offenders, but we are 
dead serious about plain English. That is because it is our job 
to be the investor's advocate. Investors deserve precise and 
clearly written rules that help them to quickly focus on what 
is important in making financial decisions.
    Using plain English respects the fact that investors are 
busy people. It lets them use their time more productively. 
Clearly presented information also makes our markets more 
efficient by improving the process of price discovery on our 
security exchanges.
    The SEC has many plain language initiatives underway. Our 
plain English requirements now apply to both offering documents 
and periodic reporting by public companies. They apply to 
mutual fund disclosure, and they apply to our own 
communications to the public.
    It is the sad truth that our government's laws and rules 
are not only mostly written by lawyers, but seemingly they are 
mostly written for the benefit of lawyers. This makes 
compliance with the laws more expensive because people who have 
to follow the laws and the rules need to hire lawyers to find 
out what they mean.
    But legalese does more than just waste time and money. When 
laws and rules are hard to understand, it is more likely that 
people who are trying to comply are simply unable to do so.
    There is nowhere that certainty in the law is more 
important than in small business. Every day small businessmen 
and women across the country execute make or break business 
decisions in tough, competitive circumstances that depend upon 
knowing what the legal rules are. Small business people who are 
working hard each day to create the goods and services that 
their communities demand need to know how to navigate in a sea 
of regulation, and we owe it to them to provide a clear answer.
    At the SEC we are taking plain English to the next level. 
In addition to using plain language in our writing, we are 
directly helping people to understand the rules and the laws 
that we administer. As one part of this effort, we have 
published the SEC's Plain English Handbook, and we are reaching 
out to small businesses and investors and anyone who wants help 
with understanding the laws that we administer and our rules.
    One place that we are doing this is in one of the fastest 
growing segments of the securities industry, the investment 
advisory industry. In the past three years almost 4,000 new 
advisers, most of them small businesses, have registered with 
the SEC for the first time. Our experience has shown that these 
newly registered firms may not be familiar with what's required 
of them under the Investment Advisers Act.
    So last summer we translated the Investment Advisers Act 
into plain English, and we e-mailed it to all of the investment 
advisers. We also keep it up on our public web site. One of the 
best features of this new plain English translation of the law 
is that each plain English description is hyperlinked to the 
actual law text so that it's easy to click back and forth and 
understand what a particular provision of the law means.
    We are also working hard to insure that the materials that 
publicly registered companies provide to investors are readable 
and understandable. We have some empirical evidence of the fact 
that most retail investors are throwing away the proxy 
statements, the 10-ks, and the other SEC mandated disclosure 
documents that they receive in the mail. If your customers 
routinely throw your product away, you have got a problem.
    There can be many reasons that our customers are 
dissatisfied, but the most obvious is that they are busy 
people. Wading through dense legalese is not their day job, and 
ordinarily they just do not have time for it.
    If time is money, then poorly written disclosure documents 
are wasting one of the investor's most important assets. At the 
SEC, we have noticed that public companies take a great deal of 
care in sprucing up their catalogs and their sales materials so 
that customers will be interested in buying their products. 
Doesn't it make sense that they and we, the government, should 
take the same degree of care in making investor materials more 
readable?
    Our plain English efforts are focused on areas where 
consumers have the most to gain. So for retail investors, 
including many small businesses, that means mutual funds where 
nearly half of the more than three trillion dollars that 
Americans have invested in 401(k)s and similar plans is 
invested.
    Just a few months ago, the Commission proposed rule changes 
to make mutual fund disclosures easier to understand. Under 
this proposal every mutual fund would include key information 
in plain English in the front of the mutual fund prospectus. 
That will make reading a mutual fund prospectus far easier than 
it is today.
    Yet another example of how we are using plain English to 
help individuals in small business is our proposed new rules 
that require investment advisers to give clients a brochure in 
plain English. It would offer investors clearly presented 
information about the investment adviser's business practices, 
conflicts of interest and disciplinary history.
    One further area where we are working to promote clarity is 
our new executive compensation disclosure regime. The 
Commission recently enacted new rules letting investors see 
clearly how the executives who work for them are paid, and the 
new rules explicitly require that the narrative be written in 
plain English.
    Mr. Chairman, these are just some of the many ways that the 
SEC is working to promote plain English to make life better for 
investors, for companies large and small and for our markets, 
but I also want to congratulate you and this Subcommittee for 
your focus on the importance of plain language across the 
entire government. And, in particular, I appreciate your 
interest in legislation such as H.R. 3548, the Plain Language 
in Government Communications Act of 2007, which of course was 
authored by you, Chairman Braley.
    As you know, there are similar efforts underway in the 
Senate led by Senator Akaka, who has introduced S. 2291. I am 
certain that small business would welcome a law that 
establishes plain language as the standard style of 
communication for federal documents issued to the public. It is 
heartening that the House bill, as you have mentioned, has 
already been unanimously approved by the House Oversight and 
Government Reform Subcommittee on Information Policy, Census, 
and National Archives.
    Your bill, Mr. Chairman, would require the use of plain 
language in any new or revised document issued by a federal 
agency, and that is certainly a good start. I note that it 
would cover any documents that explain how to obtain a benefit 
or service, including letters, forms, notices, and 
instructions.
    The next step, of course, would be to include regulations. 
I am certain that there are reasons for that modesty in the 
bill's objective, but I encourage the members of this Committee 
to aggressively pursue the goal of plain language in 
regulations as well. I have been fighting for this at the SEC, 
and as you may see from our most recent proposed rules, 
legalese in rule text remains alive and well even at our 
agency.
    Finally, I would point out that the key to achieving real 
change in increasing the use of plain language is the adoption 
of objective standards for measuring whether government writing 
is, in fact, understandable. Fortunately, there is useful 
experience in the states that can guide us in doing this.
    Thirty-five states have already enacted plain language 
laws, and you mentioned that Iowa has such a law for jury 
instructions. Many of these laws have been quite successful in 
eliminating gobbledygook from consumer sales documents and 
insurance contracts. For example, Pennsylvania's Plain Language 
Consumer Contract Act includes specific tests of what plain 
language is, and penalties for non-compliance.
    But Pennsylvania's admirable law also shows the need for 
federal action because it excludes language intended to comply 
with federal requirements. Of course, feasibility tests are 
only a rough guide. The simple yardsticks are only a rough 
estimate of their writing.
    On the other hand, we're talking about laws, regulations, 
government documents, and investor communications. It is not 
supposed to be Hemingway. So if we lose the capacity for poetry 
in the process of keeping things clear and understandable, that 
is a price that we should happily pay.
    Far better than any mathematical formula for measuring 
readability is testing a document on real people. That is why 
the SEC is planning to measure the effects of our efforts by 
talking to real investors. We will soon conduct a baseline 
survey of America's investors to find out whether they find 
proxy statements, 10-ks, and other SEC required disclosure 
documents to be readable and useful - and if not, why not? The 
survey will also gather ideas on what would make these 
documents more useful.
    Mr. Chairman, the attention that you and your fellow 
Committee members are paying to this important subject is long 
overdue. Eliminating waste in government is an objective that 
everyone shares in theory, but it always seems difficult to 
find good opportunities. Here is an outstanding opportunity to 
achieve enormous savings for both small businesses and 
consumers without any countervailing loss of government 
interest. In fact, the government interest is advanced as well 
by eliminating legalese in government writing, because when it 
is easier to understand the rules, more people will follow 
them.
    Thank you for inviting me to testify, and I am happy to 
answer your questions.
    [The prepared statement of Chairman Cox may be found in the 
Appendix on page 34.]

    Chairman  Braley. Mr. Chairman, we had an opportunity to 
speak briefly before your testimony, and I was sharing with you 
that when I talked to people about this bill and informed them 
that the Securities and Exchange Commission has been at the 
forefront of plain language advocacy, many people are shocked 
by that because I think when most people think of the work that 
the Commission does and the nature of its complex financial 
circumstances, they would probably not assume that an agency 
like yours would be leading the charge.
    So I was hoping maybe you could share with us a little bit 
about the institutional obstacles you have encountered and that 
you still encounter in trying to make this something that the 
entire agency embraces as something that is good for investors. 
It is good for the companies that you are regulating, and it is 
good for the consumers.
    Mr.  Cox. Well, I suppose that one reason that people react 
as you suggest they do when you mention that the SEC is leading 
the effort for plain language is that these days when they 
think of the SEC they may think first of the Sarbanes-Oxley 
Act. Of course, the Sarbanes-Oxley Act was our handiwork here 
in the Congress, something that the SEC administers, but 
regardless of what everyone thinks of the Sarbanes-Oxley Act, 
no one would say it's Hemingway.
    Translating legislative language into plain English is 
something that either the government can help with or not, but 
it has to be done. People who are trying to understand what 
they are supposed to do have to go through the exercise of 
taking the convoluted legalese and turning it into something 
actionable. They have to be able to tell their employees what 
to do. The customers, if it involves a contract or some closure 
that goes to them, likewise have to translate it into something 
that has relevance or meaning to them.
    We live in a nation of over 300 million people. For many of 
them, English is not even their first language, but for all of 
them, except a small percentage with lawyers among them, 
legalese is their second language or further down the list.
    So I think it's just absolutely vitally important for an 
agency such as the SEC, which is focused on being the 
investor's advocate to take that burden up ourselves, and that 
is why we are doing this. We are a lawyer-centric agency, 
however. You asked what are the institutional obstacles. That 
is the biggest one. There are a lot of lawyers writing for 
lawyers. Since the lawyers can all understand it much more 
easily, it ultimately becomes a shorthand for them. They do not 
always see the need, and so it requires a constant refocusing 
on who the customer is and what is the point of all of this 
disclosure regime.
    Chairman  Braley. Well, after being here for just one year, 
it became apparent to me that this is a city that is run by 
people under the age of 30, many of whom have excellent 
educations. A number of them have legal educations, and I think 
one of the obstacles is trying to convince them that that 
education will not be put to waste if they focus on plain 
language drafting.
    One of the things that is mentioned in your excellent SEC 
Plain Language Handbook is this quote. ``Lawyerisms are words 
like a 'aforementioned,' 'whereas,' 'res jeste,' and 
'hereinafter.' They give writing a legal smell, but they carry 
little or no legal substance.''
    And the problem is that these words clog up many of the 
publications that agencies send out for people to use around 
this country in a variety of settings, and they become real 
barriers to effective understanding of what the intent of those 
communications are. So what type of advice do you have for 
other agencies in terms of trying to implement plain language 
techniques and how they communicate?
    And I would also like to point out that there is nothing 
that bars a federal agency from voluntarily implementing plain 
language as part of its communications philosophy.
    Mr.  Cox. I think that is the important point. We need 
legislation here to bring the people along who are unwilling, 
but we do not need legislation to get anyone who wants to be 
part of this movement. In the government there are a lot of 
public-spirited people who understand that we are here to serve 
who would like to get moving with this right away.
    Any federal worker that has on his or her desk Microsoft 
Word already has a tool that they can run what they are writing 
through to determine the level of readability. Flesch Reading 
Ease Score is referring to an algorithm developed by a lawyer 
named Flesch who was also a professional writer by training, 
and who earned his Ph.D. at Columbia University for developing 
this test. It is one of these mechanical tests, so it gets some 
people's back up to have to expose their writing to it, but I 
ran my testimony today through the test and found that it would 
comply with the state laws governing insurance contracts that 
are measured by the Flesch Reading Ease Score because typically 
they require a minimum score of 40 to 50 on the 100 point 
scale. I came in at just under 49 today.
    Chairman  Braley. Well, congratulations, and with that, we 
do have votes pending. So I would like to yield to my colleague 
and let him ask any questions that he might have for you.
    Mr.  Davis. Thank you, Commissioner, for being here. Thank 
you for your service in the Congress as well, and since we do 
have votes pending, I am going to ask one question.
    Has the Commission received comments from the public about 
the improvements in readability in documents? Have you gone out 
to the public?
    Mr.  Cox. Yes, we have. We have done this in informal ways 
so far. We have many, many sources of public comment, including 
as you would expect consumer help lines and that sort of thing. 
We have opportunities for the public to comment on our rules, 
and many of our recent proposed rules have had plain English 
requirements. So we have gotten formal comment from the public 
in that way.
    But we want to take this, as I said, one step further, and 
so our Office of Investor Education and Advocacy under the 
direction of Kristi Kaepplein, who is here with us today, is 
going to do a nationwide baseline survey and get very good 
measures of where we are starting and, therefore, measures of 
whether we are improving down the road.
    Chairman  Braley. Well, Mr. Chairman, I want to thank you 
so much for coming and sharing some time with us today, and I 
would hope that if the Committee has additional questions or 
inquiries about the practices at your agency that we could 
continue to work with you and your staff and follow up with 
some other questions that we might have about other agencies 
might practically benefit from the leadership example of your 
agency.
    Mr.  Cox. Thank you, and thank you and your Committee 
members for your excellent leadership.
    Chairman  Braley. And I would like to inform our second 
panel that unfortunately we are in the late states of a vote. 
It is a series of votes, and it will probably take around 45 
minutes. So the hearing will be adjourned, and we will 
reconvene at that time and look forward to your testimony at 
that time.
    Thank you.
    [Recess.]
    Chairman  Braley. All right. We are back for Panel 2, and I 
want to thank you all for your patience. When we head back over 
to the floor to vote, we never really know what is going to 
happen over there.
    So I am very proud at this time to introduce our next panel 
of witnesses, and I would like to begin on our left with Mr. 
Robert Romasco with AARP. He is a member of the AARP Board of 
Audit and Finance Committee and Governance Review Committee. He 
also serves on the AARP's Pension Plan Review Committee.
    His employment experience includes service as Senior Vice 
President of Customer Distribution and New Business Development 
at Quality, Value, Convenience, the well known QVC Television 
Network, and also AARP has over 39 million members and is a 
leading nonprofit, nonpartisan membership organization for 
people age 50 and older in the United States, and I am happy to 
report, Mr. Romasco, that I got my membership application after 
my 50th birthday.
    So thank you very much for joining us.

         STATEMENT OF ROBERT ROMASCO ON BEHALF OF AARP

    Mr.  Romasco. We are delighted that we are still being very 
effective at getting you those things. Thank you very much.
    Chairman Braley and Ranking Member Davis, thank you for the 
opportunity to appear today to discuss the benefits of plain 
language in government communications with the public. This is 
an issue of particular interest to older Americans, many of 
whom have regular contact with the federal government, be it 
for veterans benefits, social security, Medicare, or other 
benefits and services.
    We commend you, Mr. Chairman, as well as Representative 
Akin of this Subcommittee and other of your colleagues, for 
introducing H.R. 3548, the Plain Language in Government 
Communications Act of 2007. We urge that members of this 
Subcommittee and, indeed, the full Congress support enactment 
of this legislation this year. It will improve the federal 
government's effectiveness and accountability to the public by 
promoting reliable, understandable, and useful communication.
    Interest in making government documents clear has a long 
but sporadic history. We understand that as far back as the 
1940s federal government employees have advocated for plain 
language in government documents. Yet the need for plain 
language in government communication with the public persists.
    Interest in encouraging plain language has waxed and waned 
over the past several decades. For example, in the 1970s the 
Nixon and Carter administrations encouraged greater use of 
plain language. And while interest dropped during the 1980s, it 
came back in the 1990s.
    In order to insure uniform progress in this area, AARP 
believes a statutory requirement for government agencies to 
write in plain language is needed. This should include a 
requirement that the agencies report to Congress on their 
progress they are making in meeting this goal.
    Some may believe the obviously desirability of using plain 
language in government communications makes such legislation 
unnecessary. Unfortunately, there is ample evidence to the 
contrary. AARP hearing every day from our members who cannot 
understand the dense, legalistic correspondence they get from 
the government.
    In most cases this lack of understanding is not the 
reader's fault, but rather reflects the confusing writing style 
of the agency. Though I am tempted to provide examples of some 
of the most inaccessible government writing we have uncovered, 
I instead will refer you to our written statement as well as 
those of others.
    Sometimes these examples of government writing are comical, 
but the joke unfortunately is on the taxpayer. It is common 
sense that the use of plain language in government documents 
will save the federal government an enormous amount of time 
that is now spent helping people understand the information 
they receive. It will also reduce errors in people's response 
to what the government sends out. It also will reduce 
complaints from frustrated citizens.
    In short, plain language will result in more efficient and 
effective government. Mr. Chairman, the goal of plain language 
is simple: make the documents the government uses 
understandable on the first read. Though the goal is simple, 
the benefits are tremendous. Others will testify with some very 
impressive statistics which will underline that concept.
    Finally, AARP respectfully encourages Congress to adopt the 
sensible and much needed legislation.
    Thank you.
    [prepared statement of Mr. Romasco may be found in the 
Appendix on page 40.]

    Chairman  Braley. Thank you.
    Our next witness is Mr. Todd McCracken. He is the President 
of the National Small Business Association. Mr. McCracken 
started with the association in 1988, previously serving as 
Vice President of Government Affairs. Established in 1937, NSBA 
is the oldest small business organization. NSBA's advocacy 
touches more than 150,000 companies around the nation.
    Welcome.

STATEMENT OF TODD McCRACKEN, PRESIDENT, NATIONAL SMALL BUSINESS 
                         ADMINISTRATION

    Mr.  McCracken. Thank you very much, Chairman Braley and 
Ranking Member Davis. We appreciate the opportunity to be here 
today.
    I can dispense with my introduction of the organization 
because which you did so ably, but as members of this 
Subcommittee well know, in addition to being a bedrock of our 
society and really the very embodiment of America's 
entrepreneurial spirit, small businesses constitute the 
backbone of the U.S. economy. Small businesses comprise 99.7 
percent of all domestic employer firms and employ more than 
half of all private sector workers.
    Between 1989 and 2003, America's small businesses generated 
93.5 percent of all net new jobs. Approximately 4,000 new jobs 
are created every day by small businesses. Why is this 
important to note? Because these small businesses are the very 
firms that are most likely to be disadvantaged by the garbled 
and confusing communications they receive from the federal 
government.
    Perplexing paperwork and the oppressive federal regulatory 
regime are overburdening America's small businesses. Unlike big 
corporations which have hordes of accountants, benefits 
coordinators, attorneys, personnel administrators, et cetera, 
at their disposal, small businesses often are at a loss to keep 
up with, implement, afford, or even understand the overwhelming 
regulatory and paperwork demands of the federal government.
    While the Plain Language in Government Communications Act 
of 2007 would not directly address this dispiriting inequity as 
it does not address federal regulations, it would go a long way 
in easing the federal government's demands on America's small 
business owners. Lacking legions of paperwork soldiers, most 
small business owners are left alone in their battle to 
understand the letters, forms, notices and instructions they 
receive from the federal government. As you might guess, far 
too often the result is a slaughter. Forget death by a thousand 
cuts. Try a billion.
    In fiscal year 2005, the American public spent 8.4 billion 
hours wrestling with federal paperwork requirements, and $1.1 
trillion complying with federal regulations. This burden was 
disproportionately borne by the country's small businesses.
    This burden is attributable to more than the mere act of 
compliance, however. It is also caused by the bewildering 
language used in much of this paperwork. Small business owners 
are not dumb. They are simply not fluent in legalese or 
Washingtonese. The federal government's proclivity towards 
arcane, ambiguous or simply incomprehensible language 
translates into billions of lost hours and dollars. This is 
money and attention that America's entrepreneurs could be 
putting to better use, growing their businesses, for instance, 
or hiring more of your constituents.
    It is equally important to note that the effort to force 
the federal government to use the plain language in its 
communications must not be construed as an attempt to diminish, 
dilute or skirt federal requirements. Quite the contrary, the 
small business members of NSBA are of the opinion that clearer 
federal communications will ease compliance which naturally 
will increase compliance.
    It is not the goal of most small business owners to 
deliberately flout or infringe their federal obligations. No 
matter how dizzying the mass and magnitude of the requirements 
are, it is simply in their best interest to comply and move on 
to the next task at hand. When violations do occur, more often 
than not they are the small business owner's inability to 
decipher what is being asked of them. In fact, 93 percent of 
the responses to a recent NSBA poll reported having trouble 
understanding a letter, form, notice or instructions they 
received from the federal government.
    Simplicity is the key. The simpler the letter, form, 
notice, instructions or requirements, the easier it will be for 
small business owners to understand and comply. Of course, 
easier and increase compliance not only assist small business 
owners and other citizens. It is also in the best interest of 
the federal government.
    In short, plain language is a common sense approach to 
saving the federal government and small business owners time, 
effort, and money.
    As I previously mentioned, the Plain Language in Government 
Communications Act of 2007 does not extend its plain language 
requirements to federal regulations. Convinced that clearly 
written and precise federal regulations would carry the same 
benefits as plainly written letters, forms, notices or 
instructions, the small business members of NSBA eventually 
would like to see federal regulations written in plain or at 
least plainer language as well. In fact, 97 percent of the 
respondents to the NSBA poll I mentioned previously would 
support legislation requiring all federal regulations be 
written in easy to understand, plain language.
    Despite this exclusion, NSBA supports H.R. 3548. An 
impressive regulatory regime and mountains of mingled messages 
and jumbled jargon from the federal government are a plague on 
small businesses across the country, the very small businesses 
the country relies on for job creation and economic prosperity. 
Thankfully this plague has a cure, a cure that is plain to see 
and easy to understand. The small business members of NSBA 
believe that the Plain Language in Government Communications 
Act of 2007 is an important component of this cure and are 
pleased to support it.
    Once again, I would like to thank Representative Braley for 
his leadership on this important initiative and for the 
attention of this Subcommittee, and at the appropriate time I 
would be happy to answer questions.
    Thank you.
    [The prepared statement of Mr. McCracken may be found in 
the Appendix on page 47.]

    Chairman  Braley. Thank you.
    Our third witness is Keith Hall. He is a small business 
owner and a CPA and has been a member of the National 
Association for the Self-Employed, NASE, since 1990 where he 
works with the association's Tax Talk Service. He also has his 
own financial consulting firm in Dallas, Texas.
    The National Association for the Self-Employed is the 
nation's leading resource for micro business, and is the 
largest nonprofit, nonpartisan association of its kind in the 
United States.
    Welcome.

    STATEMENT OF KEITH HALL, NATIONAL TAX ADVISOR, NATIONAL 
               ASSOCIATION FOR THE SELF-EMPLOYED

    Mr.  Hall. Thank you.
    Chairman Braley, Ranking Member Davis, I appreciate the 
opportunity to be here. To follow up on the SEC Chairman's 
comments, I hope no one gets shot today because it is usually 
the small business guy. So watch out for that.
    Again, as you mentioned, I am here as the National Tax 
Advisor for the National Association for the Self-Employed, 
representing 250,000 micro business owners across the country. 
The NASE is solely dedicated to the needs of micro businesses.
    I am very proud to be a member of the NASE, and though I 
think National Tax Advisor sounds really cool, in plain 
language, I am just a small business guy. That is it. I have a 
small accounting practice in Dallas, two CPAs, two employees. 
Through NASE Tax Talk, we have the opportunity to answer 
thousands of questions every year from small business guys just 
like me, and I can tell you with total confidence that we 
struggle with understanding government communication, 
especially IRS rules and regulations.
    It is difficult to see why anybody would oppose simplifying 
the language included in government communication, and I am 
really glad I have a chance to tell you how important this is 
to small business.
    The bill H.R. 3548 is way overdue and is a welcome sign of 
relief. Even though I am a CPA, I still struggle with some of 
the forms and publications required to complete a tax return. 
There are over 1.4 million words in the tax code, and I think 
that is about three times as many as in the Bible and maybe 
even more difficult to understand.
    Obviously, trying to simplify something that is so 
complicated is a big task. I will say in the last several years 
the IRS has done a great job in helping small businesses. They 
have dedicated significant resources to an awesome Web site and 
have made a number of tax forms easier to read. They have 
implemented an easier annual filing for payroll tax returns, 
Form 944. They have simplified Form 941 and Form 940 by using 
plain language.
    Overall, they have made a big difference for us, and all of 
that was made without so to speak an act of Congress: no new 
bill, no new deduction or exemption, no new code section, no 
decrease in Treasury revenue; only a commitment to making the 
existing rules a bit easier to understand and the forms a bit 
easier to fill out. And that is exactly what we are talking 
about.
    I think the IRS has done a great job, but there is still a 
lot left to do. The IRS itself estimates that a small business 
taxpayer with a 1040 and a Schedule C spends about 57 hours 
completing their tax return, and if they have a home office 
deduction or depreciation calculation, that number can approach 
100 hours.
    Depreciation is a great example. Assume a small business 
guy buys a $1,500 computer for their business. No one disputes 
that there should be a tax deduction for that computer, but 
since it is an asset, the guy has to fill out a Form 4562, 
depreciation and amortization, in order to get to the 
deduction. Here is a two-page Form 4562, and here are 16 pages 
of instructions that go with the two-page form.
    Now, I am a CPA, but, man, that is tough to deal with. 
Forty-seven hours.
    Again, nobody disputes the fact that there should be a 
deduction for the computer. Congress has even recognized how 
important investing in the business is and has passed a law so 
that that computer can be fully deducted in the first year. The 
Section 179 deduction allows him to take a full deduction in 
the first year instead of over five years, which is great news.
    But the bad news is he still has to fill out the Form 4562 
and attach it to the return. There is no future expense, no 
future depreciation, no carryover, but you have still got to 
fill out that form with 16 pages of instructions. This is the 
perfect example of how changes added to changes added to 
changes over the years have made things more complicated than 
is necessary.
    This could be fixed with one commitment to plain language. 
One form or publication written in plain language as required 
by H.R. 3548 could make this problem go away. The business use 
is the same. The deduction is the same. The Treasury revenue is 
the same. The only difference is the small business guy now has 
47 extra hours he used to have to spend on the form now he can 
spend using to manage his business, to get a new customer or, 
better yet, to generate a new job.
    Now, this is an election year. In November we will choose a 
new President. No matter whom we choose, that person will have 
already told us, among other things, that they are committed to 
the creation of new jobs. They are all going to tell us that. 
It is my belief that the true effect of plain language and tax 
simplification is just that, new jobs.
    If every small business owner had an extra 47 hours, new 
business, new customers, new revenue, new tax money, and new 
jobs would soon follow.
    Again, Mr. Chairman, Ranking Member Davis, I appreciate the 
opportunity to be here. Thank you so much for your efforts that 
you are investing in my business. You truly are making a 
difference, and I know that is why you guys came to Washington 
in the first place.
    Thank you very much.
    [The prepared statement of Mr. Hall may be found in the 
Appendix on page 51.]

    Chairman  Braley. Thank you.
    Our next witness is Dr. Annetta Cheek from the Center for 
Plain Language. She is the founder of the Center for Plain 
Language in Silver Spring, Maryland, and currently serves as 
its chair. She has been a leader in the plain language movement 
since her days as a federal employee and helped create the 
Plain Language Action and Information Network, otherwise known 
as PLAIN.
    The Center for Plain Language is a nonprofit organization 
seeking to simplify government, legal and business documents, 
and, Dr. Cheek, I know of no one in this room better qualified 
to address this subject than you. So, please share your remarks 
with us at this time.

  STATEMENT OF ANNETTA CHEEK, Ph.D., CHAIR, CENTER FOR PLAIN 
                            LANGUAGE

    Dr.  Cheek. Thank you very much, Mr. Chairman, Ranking 
Member.
    This is a very complex world that we live in today, and it 
is getting more and more complex. We all face many legal, 
financial, health, security challenges, and we can't as 
individuals understand all of the complexities that we need to 
understand to deal with all of those issues. So we have to turn 
to someone else for information, and the main place that we 
turn is the federal government.
    We rely on the government for information to help us 
address all of those issues. We pay the cost of the government, 
and I believe it should be our right to be able to understand 
what the government tells us.
    But instead, we get long sentences, convoluted language, 
turgid; some pilots we interviewed used the term Byzantine 
language from the federal government, and I will not restrain 
myself. I must read some examples.
    This is from the Department of Justice, and I do want to 
say for the lawyers in the room that some of my best friends 
are lawyers. So even though they wrote most of this, you know.
    ``The amount of expenses reimbursed to a claimant shall be 
reduced by any amount that the claimant receives from a 
collateral source. In cases in which claimant receives 
reimbursement under this provision for expenses that also will 
or may be reimbursed from another source, claimant shall 
subrogate the United States to the claim for payment from the 
collateral source up to the amount for which the claimant was 
reimbursed under this provision.''
    And what this means simply is that if you get a payment 
from another source for expenses that we also pay you for, we 
will reduce our payment to you by the amount that you got from 
the other source. Furthermore, if you already got paid twice 
for the same expenses, you have to pay us back.
    Here is the Small Business Administration example, and this 
unfortunately came off their Web site. The Web site obviously 
meant public consumption, public information.
    ``Seven (a) loans are only available on a guaranty basis. 
This means they are provided by lenders who choose to structure 
their own loans by SBA's requirements and who apply and receive 
a guarantee from SBA on the portion of this loan. The SBA does 
not fully guarantee 7(a) loans. The lender and SBA share the 
risk that a borrower will not be able to repay the loan in 
full. The guaranty is a guarantee against payment default, it 
does not cover imprudent decisions by the lender or 
misrepresentation by the borrower.''
    And all that the public really needs to know about this is 
that small businesses must get SBA 7(a) loans through approved 
lenders, and that by giving those lenders a partial guarantee, 
SBA shares with them the risk that you may not repay your loan.
    And finally, one from the National Park Service Guidelines 
for Using a National Seashore. ``When the process of freeing a 
stuck vehicle that has been stuck results in ruts or holes, the 
operator will fill the ruts or holes created by such activity 
before removing the vehicle from the immediate area.''
    I have to give the Park Service credit. This is their own 
rewrite. ``If you make a hole while freeing a stuck vehicle, 
fill the hole before you drive away.''
    [Laughter.]
    Dr.  Cheek. And that is from a regulation.
    This kind of language is not only annoying. It puts 
citizens at risk, and it makes it difficult for federal 
agencies to fulfill their missions effectively and efficiently. 
It discourages people from complying with requirements.
    One of our board members is a small businesswoman from 
Tulsa, and she asked 13 of her other clients, most of whom are 
also small business people, how they responded when they got a 
difficult government communication. Of the 13, 11 said they 
delayed dealing with it and ten said they may never fill it out 
at all because it was just too complex to deal with.
    So this is one example of how government communication 
costs the citizens and it costs the government. The government 
has to chase after those people to get them to fill out the 
forms. It has to write a second document to clarify the first 
document that no one could read, and I have to say having seen 
these many times that you usually cannot read the second 
document either.
    Sometimes the government even loses court cases over lack 
of clarity in language. About ten years ago, there was a case 
where the Immigration and Naturalization Service was sued over 
the clarity in a form, and the Ninth Circuit decided that the 
form was so obscure that it denied the people filling it out 
due process under the Constitution, and as a result the INS 
lost a huge number of document fraud cases because of the lack 
of clarity in the form.
    Now, the other side of the story is equally compelling. 
Plain language can benefit both the citizen and the government. 
Before I get into some examples, let me clarify what I mean by 
plain language because there is obviously a lot of 
misunderstanding. Plain language is audience focused. There are 
no hard rules except to be clear to your audience. If someone 
says if you use this plain language rule, such as the word 
``you,'' you will confuse people. That person does not know 
what plain language is. The only rule in plain language is to 
be clear to your intended audience. Everything else is 
technique. ``You,'' pronouns, order of sentences, active verbs, 
those are all techniques. The only rule is to be clear to your 
audience.
    So let me give you just a couple examples of benefits. The 
State of Arizona has been in the news a lot lately because 
their Department of Revenue started a plain language initiative 
that spread to other agencies in the state, and here are just 
two of the examples that they gave for savings.
    One office saved $51,000 from phone calls that they did not 
get because their instructions were clear. Another office 
collected an extra $144,000 because their payment instructions 
were clarified.
    Veterans benefits has been a major leader in plain 
language. They have a lot of good examples from VBA. In this 
one case they rewrote one letter about benefits into plain 
language, and as a result phone calls to the office declined 90 
percent, saving them a lot of time.
    But another side of the story, even better, was that more 
veterans applied for benefits because when they got the letter, 
they understood what benefits they were qualified for. So as a 
result of rewriting this one letter the government was able to 
better serve the citizens that it was supposed to be serving.
    There is even one cute story about the Hill, involving Hill 
staff. VBA paid a contractor to study the reaction of Hill 
staff to plain language and classical letters. They asked the 
staff to answer questions after reading either a plain language 
letter or a traditional letter, and it turned out that the 
staff could answer the questions correctly in less than half 
the time when they were reading a plain language letter. And 
unanimously the staff involved in the study said they preferred 
the plain language letter.
    So there is lots of evidence, and I have attached more to 
my testimony, and despite this evidence, however, most agencies 
find it easier to write in a bureaucratic style than to make 
the extra effort it takes to write clearly. The philosophy in 
the government is that the burden of understanding is on the 
reader, and actually the burden of understanding or clarity 
should be on the writer.
    Agencies will not change this outlook on life unless there 
is a piece of legislation like 3548 that requires them to do 
that. Mr. Chairman, the Center for Plain Language strongly 
supports this bill. We urge the Congress to enact it. It will 
be an important step on the path to making the government of 
the people and by the people truly for the people.
    Thank you.
    [The prepared statement of Dr. Cheek may be found in the 
Appendix on page 56.]

    Chairman  Braley. Thank you.
    Our fifth witness is a constituent of mine. I am very proud 
of have her here. Chris Grundmeyer is Vice President of Auxi 
Health Services in Oelwein, Iowa, in Fayette County. She is a 
registered nurse and works as a facility administrator at Auxi 
Health Services, which provides skilled nursing, therapy, and 
aide services to various age groups to enhance independence and 
wellness in the home. She currently serves as president of the 
board of directors of Iowa Alliance in Home Care and is a 
member of National Association for Home Care and Hospice. NAHC 
is the largest home health trade association in the nation. The 
Iowa Alliance in Home Care is a voice for home care in Iowa 
representing the vast majority of home care providers of all 
type throughout the state. She is testifying on behalf of both 
organizations, and my colleague to my right is somebody you 
probably have a lot in common with.
    So at this time we welcome you and look forward to your 
testimony.

   STATEMENT OF CHRISTINE GRUNDMEYER, R.N., ON BEHALF OF THE 
  NATIONAL ASSOCIATION FOR HOME CARE AND HOSPICE AND THE IOWA 
                     ALLIANCE FOR HOME CARE

    Ms.  Grundmeyer. Thank you, Mr. Chairman, Ranking Member 
Davis, and Subcommittee members, for inviting me to present 
testimony regarding the use of plain language to reduce the 
paperwork burden on small businesses.
    As you said, my name is Christine Grundmeyer, and I am a 
registered nurse. I am the administrator at Auxi Health in 
northeast Iowa, and I am the president of the board of 
directors for the Alliance in Home Care, the voice for home 
care in Iowa.
    I am a member of the National Association for Home Care and 
Hospice (NAHC), the largest home health trade association in 
the nation.
    Home health agencies are generally small businesses. The 
average home health agency revenue from Medicare, the primary 
payer of home health services, is under $1.5 million per year. 
Medicare standards for home health agencies address quality of 
care, financial reporting, and benefit administration. These 
requirements establish both broad parameters for operation and 
minute details on record keeping. Any divergence from these 
standards subject the home health agency to sanctions, 
including the potential for termination of participation in the 
Medicare program.
    For the purposes of the testimony, I have highlighted two 
areas of regulation under Medicare where plain English is an 
elusive element. In fact, if there was a plain English 
requirement applied to these areas by Medicare in the same 
manner that the substantive standards of the rules have been 
implemented, it might take 100 or more pages to define, 
redefine, clarify, and explain the meaning of plain language.
    OASIS, let me speak to OASIS. OASIS is the manner by which 
home health agencies collect and report data used for outcome 
measures, public reporting of quality indicators, and case mix 
adjustment in the Medicare prospective pay system model. OASIS 
is a series of questions that are used to assess the patient at 
the start of care and periodically thereafter.
    While all of the questions are included in a later quality 
of care analysis, only 25 are used in the PPS model to 
determine the case specific amount of payment. Fifteen pages of 
data, 76 questions occupy a seasoned nurse for upwards of an 
hour and a half. From this single statutory mandate has sprung 
36 pages of the Federal Register on January 25th, 1999, and a 
series of promulgated regulations. At that level the rulemaking 
seems reasonable and simple. The payment model elements of 
OASIS bring an additional 45 pages of guidelines that overlap, 
sometimes repeat those interpretive guidelines in the quality 
of care realm.
    Home health agencies must have two sets of guidelines, one 
which is this 800 page OASIS instruction manual open at the 
same time to insure the assessment and the payment standards 
are consistently met.
    While NAHC and the Iowa Alliance in Home Care have 
continually reported confusion with the sets of complex and 
lengthy OASIS guidelines issued, the most telling sign of the 
complexity is the issuance of hundreds of frequently asked 
questions which comprise about 300 pages and 12 different 
categories. These are just the questions that people ask after 
they have the manual teaching them how to fill out the 
paperwork.
    NAHC and the Iowa Association credit CMS for its 
willingness to assist the home health agencies to achieve 
consistent compliance. However, if CMS is continuing to ask 
frequently asked questions nearly a decade after the 
promulgation of the OASIS rule, the message should be that the 
rule needs a plain language adjustment. It is inconceivable 
that a rule that requires this level of interpretation and 
clarification can result in proper application and performance 
in the real world.
    Now I'd like to speak to the Medicare patient notices. 
These are the two main notice requirements applicable to the 
Medicare home health agencies. The notices included are the 
home health advance beneficiary notice and the expediated 
determination notice. Under the guidelines established by CMS, 
there are times when both notices are to be presented to the 
Medicare beneficiaries at the same time.
    Similar to the OASIS requirements addressed above, the 
beneficiary notice requirement includes statutory and 
regulatory components along with extensive interpretive 
guidelines. After navigating hundreds of pages of instructions, 
home health agencies have the dizzying task of determining 
which notice is to be given, when it is to be provided, what 
information is to be included in the notice, what action the 
agency must take after the notice, and how to document the 
entire process.
    While the HHABN and the expediated determination notice 
requirements have been in place since 2001, home health agency 
staff still today report confusion on how the process is 
intended to work. What seems to be a simple matter on the 
surface, services sought covered under Medicare has become a 
compliance nightmare because of the endless exceptions, 
clarifications, overlapping instructions, new forms, and 
challenges to common sense. Plain English is a foreign concept 
in Medicare patient notice realm.
    Home health agencies support proper notices to patients in 
changes of coverage or services. However, the current notice 
structure is its own great roadblock to successful patient 
notice because simplicity is sacrificed for a bureaucratic 
level of detail that nurses in home care have a great 
difficulty in managing while trying to provide essential care 
services.
    This concludes my formal remarks. I am happy to answer any 
questions.
    [The prepared statement of Ms. Grundmeyer may be found in 
the Appendix on page 65.]

    Chairman  Braley. Thank you very much.
    And let me start with my first question directed to you. I 
fly back home every week, and every time I get off the plane in 
D.C. and go to get a cab, I get handed a notice that tells me 
what the fare rates are for the cabs that operate in the D.C. 
Metro area, and every week I read the same notice, and I have 
just stopped taking the notice.
    I feel the same way when I go get medical care and I 
receive the HIPAA privacy notice, and after a while, the 
original intent of the regulation to put consumers of health 
service on notice of what their rights are loses its impact 
because it gets lost in the huge volume of paperwork that 
health care providers face every day.
    What are some of the frustrations you hear from you 
colleagues about not just the intent of the regulation, but the 
burden of complying with the regulation and how that impacts 
the ability to provide patient care?
    Ms.  Grundmeyer. Many of the patients that we see are sick, 
and they do not want to have to deal with this stuff. They just 
want to be taken care. So that is the biggest issue for them, 
is, you know, I do not want this. I do not want the paper work. 
They see it over and over.
    You are right. They do not read it. They take it. We put it 
in their folder. We tell them you have to have this. We must do 
this. So that is the biggest frustration. They do not read it.
    I did not speak to HIPAA today and how it affects us. We 
have lots of other things, and we redo the forms every 60 days. 
So it is not a once a year thing. I mean, the 15-page 
assessment is every 60 days. It is a dilemma.
    Chairman  Braley. Dr. Cheek, one of the things that I had 
mentioned earlier was the federal plain language guidelines, 
and you alluded to this in your opening remarks, but one of the 
things that you hear from people who are opposed to making 
change in the way agencies do their business is a lot of myths 
and misperceptions about what plain language guidelines will 
actually require.
    You made it very clear that the number one rule is to make 
sure you are writing for your intended audience, and also that 
the burden of making sure that that communication is clear is 
the writers, not the readers. That makes a lot of sense.
    What are some of the misconceptions that you have 
encountered that have been disproved by agencies and 
organizations that have implemented these types of guidelines 
in their everyday work?
    Dr.  Cheek. Well, having worked in four different federal 
agencies, I think I have heard them all. This material is too 
technical. That is a very common one. We have a great piece of 
evidence about that. The Johnson Space Flight Center redid 
their manual for contractors in a very plain style, and it 
covers very complex material about cryogenics and so on, and it 
is a wonderful model of how you can, indeed, take technical 
language and make it clear.
    And, in fact, I think the more complex the original, the 
bigger the burden you have to make it clear.
    And then there is one I heard from an attorney in the White 
House who deals with executive orders. I was trying to get them 
to make a commitment to plain language executive orders. They, 
of course, thought I was from outer space, and his comment was, 
``No, we cannot use language like that. It is not 
magisterial.''
    That sort of set me back. I did not think we had a monarchy 
anymore, but apparently we do.
    And then, of course, from the attorneys there is ``it is 
not precise.'' There are a lot of examples showing that, 
indeed, it is more precise than bureaucratic language because 
it is clear and direct.
    That about covers the waterfront, and I do not think there 
is any case that we have seen that we have not been able to 
show that a plain language version is superior.
    Chairman  Braley. Going back to your Johnson Space Center 
analogy, I cannot think of a better example to refute that 
point than the movie ``Apollo 13'' where a roll of duct tape 
was able to circumvent a catastrophic catastrophe and also was 
probably communicated in very plain language by the people on 
the ground.
    Dr.  Cheek. I am sure it was.
    Chairman  Braley. Mr. Hall and Mr. McCracken, as an 
attorney practicing in Iowa for 24 years, I represented a lot 
of small business owners, and one of the things that always 
struck me was when I represented clients who had employees with 
commercial driver's licenses and were, therefore, subject to 
mandatory drug and alcohol testing, and there would be very 
complex, precise regulations about what needed to be in 
internal policy manuals in order to comply with the regulation.
    And when my clients would bring these problems to me, I 
would just say to them, ``Well, isn't there some sort of 
example that the agency has published which is a template for 
how you comply with this requirement?''
    And they would say no, and so then they would hire me to 
draft a personnel manual for them to comply with these 
regulations, and it seemed like an incredible waste of time to 
know that this was being replicated in small businesses all 
over the country.
    What types of experiences do your members talk about in 
terms of the financial burden of complying with complex, 
difficult information that they are getting from federal 
agencies?
    Mr.  Hall. As we visit with small business, micro business 
owners across the country, most of what we talk about is taxes, 
IRS. They still go back to the confusion on the forms 
themselves, again, back to whether or not the information is in 
plain language. The vast majority of micro business owners know 
the rules. They know, back to my example, they know if they 
have bought a computer that there is a tax deduction for that.
    But when they sit down at the kitchen table to try to go 
through the forms and the IRS form says they can expect to 
spend 47 hours completing that form, they lose track of the 
plain language that they are hoping is there to what is 
actually on those forms. They know the information. They know 
the computer is deductible, but they just lose sight of how to 
translate that to the form, and I think that is the main 
benefit of an emphasis on plain language can help with those 
tax forms.
    Chairman  Braley. And before you answer, Mr. McCracken, it 
seems to me that a lot of these commercial software 
applications for tax preparation adopt the approach of working 
in a very simple progression to help people answer questions 
without having a long, detailed instruction sheet, which seems 
to get to the same point in a different way.
    Mr.  Hall. I think that is exactly right, but again, what 
they are doing now is trading their own headaches and the cost 
of Advil at the kitchen table versus having to buy the software 
package or having to pay a tax professional to do the return. 
Either way, they are still out the financial resources.
    Chairman  Braley. Exactly. Mr. McCracken.
    Mr.  McCracken. I think you have really hit the nail on the 
head, and that is you have given a specific example that 
relates to one type of business. But the reality is there are 
examples just like that for every industry, whether you are a 
metal finisher or you are trying to run a 401(k) plan for your 
employees. No matter what it is, there are examples where the 
company, not only do they have to turn to an attorney or 
benefit administrator or some professional they have to pay not 
only to interpret the laws, but also to, as you say, give them 
that security they need even once they have adopted the law to 
make sure they continue to do it correctly.
    I think it is hard to overstate the burden that that places 
on companies because usually not only are they paying for 
professional help. They are before they get to that point 
struggling on their own to see if they can figure out what it 
is they are supposed to do, and they are left often with the 
sense that they think they know what they are supposed to do 
maybe, but they are not sure.
    When you are trying to run a business and you have a 
multitude of many things in your business environment with your 
employees that are full of uncertainty, to now layer on top of 
that what ought to be clear rules for them to follow are a 
whole new layer of uncertainty. So they wind up doing a myriad 
of things. Sometimes they hire professionals to tell them what 
to do and pay a good deal of money for it.
    Sometimes, as an example, as I think Dr. Cheek mentioned 
before, they put it off. They think, well, I will figure this 
one out later. And they may fall into noncompliance, and 
sometimes they just do the wrong thing because they take their 
own best guess and that is wrong.
    So it may seem like to some folks that this is a relatively 
insignificant issues, I dare say from the small business 
perspective it is an enormous issue, and if the federal 
bureaucracy can get this one right, they will have done an 
enormous service to the small business community.
    Thank you.
    Chairman  Braley. Mr. Romasco, one of the things that was a 
vivid memory to me and, I am sure, to my colleague when we were 
campaigning was it was right after Medicare Prescription D had 
been adopted, and I spent a lot of time in community pharmacies 
looking at long lines of community pharmacists and long lines 
of your members trying to make some very complex decisions 
without a lot of guidance, with a very detailed statute that 
was still fresh and a lot of people were struggling to get a 
handle on it. Can you give us some examples of other types of 
problems that your members encounter in dealing with these 
federal agencies?
    Mr.  Romasco. Well, I think that is a vivid one, and we 
spend a lot of resources ourselves in addition to the federal 
government trying to help our members navigate through that 
and, in fact, do do that on a yearly basis when it is time to 
re-enroll. So that is an effort that never goes away.
    The second thing that I think is important is that if we 
think about it, and I mentioned it earlier, everyone in this 
room will go through veterans, Social Security, Medicare and 
Medicaid. So this is a national issue. If we just got those 
agencies to clean up their communications, we create additional 
capacity for them to deal with what will be an enormous flood 
of folks dealing with that.
    It is like the circulatory system in your body. Sooner or 
later if it is not health and you do not clean it up, plaque 
builds up, and that is what happens with these regulations, 
communications, and I think one of the testimonies we saw, that 
people just slap, cut and paste, and really do not go back and 
say, ``What am I trying to say? To whom am I trying to say it? 
And what is the real outcome here?'' An effective, efficient 
government process which serves all of us and the taxpayers.
    Chairman  Braley. Thank you.
    Mr. Davis?
    Mr.  Davis. Thank you, Mr. Chairman.
    I think we have all heard the stories, especially at this 
time of year. You call into an IRS office and you talk to three 
different people and you get three different answers. So even 
the people who work for the federal government cannot read and 
understand their own rules. It is certainly hard for small 
business owners and taxpayers to understand the rules. So we 
see that first hand.
    I would like to start my questioning with Dr. Cheek. Thank 
you.
    I understand you were a federal employee. So you got to see 
it on both sides. How much progress do you think is being made 
in implementing plain language in the federal government and 
how much more needs to be done?
    Dr.  Cheek. Well, it's discernable progress. You know, I 
can see it in several different agencies. I think veterans 
benefits has made a lot of progress. NIH is trying. IRS is 
actually trying, but they have barely scratched the surface, 
and it is a very difficult thing to do.
    Plain language is not easy. The outcome looks easy, but 
getting there is very difficult, and one thing it requires is 
clear thought and we do not have enough of that in the federal 
bureaucracy. So you cannot write clearly if you are not 
thinking clearly.
    And a lot of people are afraid of it. It is change. It is 
big change. It is going to be very difficult to get there. So 
as I said, I think we have barely begun, except that people 
know they have heard the word now. Ten years ago no one would 
have known what you were talking about. Now a lot of people 
have heard about plain language. So, you know, that is the 
first step.
    And there are now enough examples that we could show people 
what it looks like. There are a lot of studies that give you 
data showing why it is valuable. So we are off to a good start, 
but there is just a tremendous way to go.
    Mr.  Davis. Do you see any drawbacks modifying IRS forms?
    Dr.  Cheek. I do not see any drawbacks at all. It would 
make work for a lot of people and then in the long run it would 
save taxpayers a lot of time, and I think you would get, as we 
have heard here today, you would get people complying better 
with the requirements.
    Mr.  Davis. Do you see any additional cost or, on the other 
hand, any cost savings by simplifying forms at the federal 
level?
    Dr.  Cheek. I think in the long run the cost savings will 
be tremendous. I think the process of getting there, there is 
going to be some costs. In the late '70s, the British 
government started a major project where they redid a lot of 
forms. It was called the Forms Project, and when it was done 
someone in the government, and this is in ancient history now 
just about, but someone in the government said that if 
everything we did in the government was in plain English, we 
would save 20 percent of the federal budget.
    So I think in the long run there is savings of that 
magnitude to be made from plain language.
    Mr.  Davis. Are documents or the instructions to comply 
with the documents the bigger problem or are they equally 
problematic?
    Dr.  Cheek. Well, they are equally problematic. I mean, I 
think when you get a federal form that is two pages long and 
you get 16 pages of instructions, no one will read the 
instructions. What are you thinking when you write 16 pages of 
instructions? No one will read it. They will fill out the form 
to best of their ability and send it off. If it is not right, 
they will either not get a benefit; they will not pay the right 
amount; they might get penalized. The agency has to call them 
up, get it straightened out.
    It befuddles me how we have gone on so long getting in a 
deeper and deeper hole with government communication.
    Mr.  Davis. Thank you, Dr. Cheek.
    Ms. Grundmeyer, thank you for being here. I am actually a 
respiratory therapist myself, owned the DME Company before 
coming to Washington, and when I owned that company I had about 
two-thirds of my employees doing paperwork and about one-third 
of my employees taking care of patients. There is something 
fundamentally wrong when your business is to take care of 
patients and provide quality care and you have to spend more 
time taking care of paperwork for the government.
    Who in your agency is responsible for keeping up with all 
of the paperwork requirements?
    Ms.  Grundmeyer. Well, the nurses themselves are 
responsible for the OASIS when they go out and do an admission 
for a new patient. They are responsible for giving the notices 
to the patient that they are responsible for the HIPAA; they 
are responsible for all of the things that we are required to 
give them at the time of admission, and then make sure that in 
the time frame required they continue up with that.
    I do have clinical supervisors in my office who make sure 
that the nurses are doing what they want to do, what they are 
supposed to do, not what they want to do.
    Mr.  Davis. How much time do you think on a percentage 
basis does a nurse actually spend taking care of patients and 
how much of a percentage of time do they spend taking care of 
paperwork?
    Ms.  Grundmeyer. I would guess that probably a third of 
their time is paperwork and two-thirds patient care.
    Mr.  Davis. Thank you.
    Well, the Chairman has a very good piece of legislation in 
front of him. His bill focuses on plain language in forms and 
documents. Do you think we need to expand on that and actually 
include regulations published in the Federal Register?
    Ms.  Grundmeyer. Oh, yes. The Federal Register is difficult 
to interpret, and you know, then it is not just the Federal 
Register. Then you have SAMAS and we have CAHABA, and we have 
Inspections and Appeals, and you have OSHA. We have, you know, 
the FDA.
    There is more than just one governing body looking over our 
shoulders, and everybody wants a different thing. There is a 
different interpretation.
    Mr.  Davis. I am sure you have to deal with ICD-9 coding.
    Ms.  Grundmeyer. Oh, yes.
    Mr.  Davis. And I understand that is going to go from ICD-9 
to ICD-10. Who does that for you?
    Ms.  Grundmeyer. My clinical supervisors work with the 
nurses. We have spent probably about eight to ten days in the 
last year sending people to those classes to get much better 
versed at that, as our movement is to be paid by the coding 
being part of what they are doing.
    So, you know, we want to insure that it is right. It is 
stacked correctly now. I mean there is a lot of new things 
coming with coding down the pikes to home care nurses.
    Mr.  Davis. Thank you.
    Now, if I could ask Mr. Hall just a few questions. If you 
know, how much do small business owners spend on compliance 
with the tax code? Do you have any idea what it costs an 
average small business?
    Mr.  Hall. Well, again, just in preparing their tax return, 
the IRS estimates that it is 57 hours just to do their tax 
return. I think you had mentioned earlier or the Chairman had 
mentioned that that can be estimated at 50 bucks an hour, 75 
bucks an hour. Those two numbers would be 2,500 to $3,700 just 
to prepare the tax return.
    That does not count getting their records in order 
necessarily, keeping track of those, researching those. It does 
not include sending out 1099s if they have a relationship with 
independent contractors. So the word I would use would be 
substantial.
    I do not want to add any other non-plain language to the 
conversation, but it is definitely substantial.
    Mr.  Davis. How hard would it be for the IRS to revamp 
their forms to plain language?
    Mr.  Hall. Well, I think it would be easy, and I say easy. 
There are still certainly issues of the complexity of the tax 
code itself. That is a much bigger issue, maybe more difficult 
to solve because there are so many competing demands on the tax 
code.
    So to begin with, the tax code is complicated. So by 
definition some of the forms are going to be, but they have 
proven the ability to accomplish simplification through the 
items I mentioned before: an easier Form 944, which gives the 
small business taxpayer one annual payroll tax return rather 
than having to do four, one each quarter.
    Even the quarterly payroll tax return has been revamped 
with plain English, and they did an extremely effective job at 
that. Even the 940 as well.
    So I think they have proven that that task can be 
accomplished, but I think Dr. Cheek mentioned that at some 
level people will not accomplish that task unless they are 
required to do so. Their commitment to small business through 
their Web site, I think they have done an outstanding job.
    But that was also somewhat reactive because as the Internet 
came along, it was demanded of them. That is why I am so 
encouraged with this type of legislation, because it is no 
longer reactive. It is no longer their choice. If they were 
required to have those new forms, any revamping of forms 
required to be in plain language, I think that is the emphasis 
they need to accomplish the task.
    Mr.  Davis. Do you see any drawbacks from modifying IRS 
documents or forms?
    Mr.  Hall. I cannot see any drawbacks. Again, back to the 
only issue would be the complexity in the tax code. Having 
changes in the tax code or complexities for larger businesses, 
problems that small businesses do not face, that may translate 
into another set of forms.
    We have a Form 1040 now is everyone can use. Over the years 
the IRS has developed a Form 1040A, which does not have as many 
lines on it, a little bit easier to do. They also have a 
1040EZ, which is easy supposedly. That may be an option to 
separate some of the more complex issues for businesses in 
general from those issues faced by small business, and that 
could be a solution.
    Mr.  Davis. Thank you.
    Mr. McCracken, how do most small businesses go about 
finding assistance in filling out forms and documents for the 
federal government?
    Mr.  McCracken. Well, it is, frankly, I think, a little 
haphazard. I think many of them begin the process if they have 
determined they are not going to go figure it out themselves, 
they usually ask colleagues. They ask other business owners 
that they know. It is a relatively informal process, and then, 
of course, they often turn to the professionals they already 
have in their employ. If they have a CPA, if they have an 
attorney they already use, they obviously turn to those people 
as well first.
    And sometimes those people are able to help them and 
sometimes they can refer them to other places that can.
    Mr.  Davis. Okay. Thank you.
    One last question first to Mr. Romasco.
    Would it be correct to say that simplifying language if not 
done correctly might not provide consumers with all of their 
rights and obligations? Could there be a drawback if everything 
is not put out there for the person to make a decision?
    Mr.  Romasco. I think the real issue is plain language does 
not mean vague language. I think we go back to what Chairman 
Braley said, Dr. Cheek said. You can write plainly and be 
precise. It is a question of taking the time to understand the 
audience and being effective.
    Though I think the argument that plain language will leave 
something uncovered or exposure to liability or not every 
contingency. I think that is a false argument. I think we have 
seen in a number of situations both at the state and within the 
government and within business. You can simplify. You can make 
effective.
    And respect the reader. You know, we need to respect our 
constituents, our taxpayers, our citizens. They can read. They 
can understand if it is put in reasonable language. And, again, 
Chairman Braley made a very good point earlier. Plain language 
is not simply words. It is format. It is presentation. It is 
all the tools that we use in visually communicating 
instructions.
    And with all of those tools, we certainly can make the both 
complete communication, plain communication, and precise 
communication.
    Mr.  Davis. Thank you. A very good answer.
    And I yield back.
    Chairman  Braley. At this time I would recognize Ms. Clark.
    Ms.  Clark. Thank you very much, Mr. Chairman, and to a 
ranking member, it is a very interesting and important hearing.
    Mr. Chairman, I know how passionate you are about this 
issue before us today since your days as a practicing attorney 
back in 1983 when the IRS Supreme Court adopted easy to 
understand wording for jury instructions. Plain language is 
essential to many Americans because it gets the message across 
in the shortest possible time. More people are able to 
understand your message, and there is less chance that 
documents will be misunderstood.
    Having said that, I want to put a couple of questions 
before the panel and really want to focus it on what is 
happening with the Small Business Administration. There are 
regulations that you have identified that are the hardest for 
small business to understand, number one.
    Can you give a specific example of how SBA forms could be 
improved while collecting information required by law or 
regulation?
    And could you suggest one or more ways that the SBA's Web 
site could be more understandable?
    Dr.  Cheek. Well, the only one I can take on is the Web 
site because I did look at the Web site extensively as I was 
preparing for this, and like many government Web sites, in 
fact, like most government Web sites, there is too much stuff 
on there. They seem to be giving you a dissertation when all 
you want is an answer.
    The SBA needs to think about why people come to their Web 
site and what they want. They do not want to come to the Web 
site to read a lot about SBA. Most federal agencies write their 
Web sites by telling the audience what they want the audience 
to know, and that is not why people use the Web today. They 
want a quick, short answer and essentially, as with most 
government Web sites, they need to sit back and think why are 
people coming to their Web site. What do they want? And let's 
give it to them in the shortest, most direct manner.
    Ms.  Clark. I guess no one else wants to take on those 
questions right now.
    Mr.  Hall. Well, the only thing I would add, from an SBA 
standpoint that is not where I spend most of my time in 
visiting with the members of the NASE. I have dealt with a 
number of small business owners who have requested financing 
through an SBA preferred lender, and just the paperwork itself 
via the Web site as well as the forms are just extremely 
complicated.
    I think as with IRS rules and regulations, at some point 
over the years new regulations have been added on top of new 
regulations on top of new regulations, and then one regulation 
may conflict with another regulation, and the verbiage had to 
be such so that the conflict could be resolved somehow.
    Now, what that means, I do not have any idea. I just spoke 
in non-plain language.
    [Laughter.]
    Mr.  Hall. So as with the IRS rules, I think the SBA 
lending, even at the financial institution that is a preferred 
lender, that communication with the small business could be 
dramatically improved by just an emphasis on plain language.
    And if that could happen and funds could be made available 
to small business, now we are back to creating jobs, which I 
think is what we are supposed to be doing.
    Ms.  Clark. Thank you.
    Mr.  McCracken. I would just add to give some specific 
examples, which is what you asked for, I feel like I need to go 
back and review the SBA's Web site and so forth, which I did 
not do in preparation for this hearing. But I do think it is 
worth saying that, as I think Mr. Hall mentioned, most of the 
regulations that directly affect the small business community 
do not come from the SBA. In fact, there is very little 
regulatory authority that has housed the SBA.
    But they do provide a great deal of information that ought 
to be as clear and as plainly presented as possible, and I am 
quite certain that like every other federal agency, they have a 
ways to go in that regard.
    Ms.  Clark. Well, thank you very much for that. And, you 
know, Mr. Hall, I understood what you were saying even though 
it was not plain. What does that say about me?
    [Laughter.]
    Ms.  Clark. Dr. Cheek, just another question. How do you 
reconcile the need to write one regulation for multiple 
audiences, for instance, the small business managers, 
accountants, lawyers, and government officials?
    Dr.  Cheek. Okay. Well, one thing that we would say in 
plain language is that you really cannot write one document to 
multiple audiences. You can write different parts of one 
document to multiple audiences, but having written regulations 
for a large part of my federal career, which was 25 years long, 
I have seen a lot of regulations where the agency would attempt 
to mix audiences. I have spent most of my career in Interior. 
So I wrote a lot of regulations dealing with land, and they 
would talk about landowners and they would talk about 
permittees who might not be landowners, and they would mix 
everything up.
    If you are writing to multiple audiences in one document, 
you have to be very clear to separate the requirements for each 
audience into different sections of the document. It is not 
that complex. It is an issues of organization.
    And a lot of government documents are just not well 
organized, but it can be done.
    Ms.  Clark. I yield back, Mr. Chair. Thank you all very 
much.
    Chairman  Braley. Well, let me just conclude by commenting 
on what an insightful a panel this has been. One of the things 
that has been a priority for me for the past 24 years is 
studying persuasive communications, and when I was speaking 
about plain language communications to one audience and 
persuasive communications to another audience, it started to 
dawn on me that they were two sides of the same coin.
    And if the goal of our federal agencies is to be able to 
persuade consumers of information that they can understand and 
act upon information that they are being given to make critical 
decisions that affect them, especially small business owners, I 
cannot think of a more important topic than the one we have 
been discussing today.
    When you throw out the subject, plain language, it is not 
the type of thing that grabs a lot of news headlines, but when 
you hear from the witnesses we have had today about the 
monumental impact it can have on how to communicate more 
effectively with constituents all over the country, and to save 
the federal government potentially millions if not billions of 
dollars in the time federal employees spend interacting with 
people who cannot figure out their responsibilities, I am just 
very excited and optimistic about the possibilities that are 
presented by the things we discussed at the hearing today.
    And with that, Mr. Davis, if you have any concluding 
remarks, you are more than welcome to make them.
    Mr.  Davis. I would like to thank the panel. Thank you for 
what you do in your communities. Thank you for what you do in 
America. Thank you for being here today.
    I yield back.
    Chairman  Braley. And with that I would like to ask 
unanimous consent that members will have five days to submit 
statements and supporting materials for the record. Without 
objection, so ordered.
    This hearing is now adjourned. Thank you all for coming.
    [Whereupon, at 4:46 p.m., the Subcommittee meeting was 
adjourned.]

[GRAPHIC] [TIFF OMITTED] T0233.001

[GRAPHIC] [TIFF OMITTED] T0233.002

[GRAPHIC] [TIFF OMITTED] T0233.003

[GRAPHIC] [TIFF OMITTED] T0233.004

[GRAPHIC] [TIFF OMITTED] T0233.005

[GRAPHIC] [TIFF OMITTED] T0233.006

[GRAPHIC] [TIFF OMITTED] T0233.007

[GRAPHIC] [TIFF OMITTED] T0233.008

[GRAPHIC] [TIFF OMITTED] T0233.009

[GRAPHIC] [TIFF OMITTED] T0233.010

[GRAPHIC] [TIFF OMITTED] T0233.011

[GRAPHIC] [TIFF OMITTED] T0233.012

[GRAPHIC] [TIFF OMITTED] T0233.013

[GRAPHIC] [TIFF OMITTED] T0233.014

[GRAPHIC] [TIFF OMITTED] T0233.015

[GRAPHIC] [TIFF OMITTED] T0233.016

[GRAPHIC] [TIFF OMITTED] T0233.017

[GRAPHIC] [TIFF OMITTED] T0233.018

[GRAPHIC] [TIFF OMITTED] T0233.019

[GRAPHIC] [TIFF OMITTED] T0233.020

[GRAPHIC] [TIFF OMITTED] T0233.021

[GRAPHIC] [TIFF OMITTED] T0233.022

[GRAPHIC] [TIFF OMITTED] T0233.023

[GRAPHIC] [TIFF OMITTED] T0233.024

[GRAPHIC] [TIFF OMITTED] T0233.025

[GRAPHIC] [TIFF OMITTED] T0233.026

[GRAPHIC] [TIFF OMITTED] T0233.027

[GRAPHIC] [TIFF OMITTED] T0233.028

[GRAPHIC] [TIFF OMITTED] T0233.029

[GRAPHIC] [TIFF OMITTED] T0233.030

[GRAPHIC] [TIFF OMITTED] T0233.031

[GRAPHIC] [TIFF OMITTED] T0233.032

[GRAPHIC] [TIFF OMITTED] T0233.033

[GRAPHIC] [TIFF OMITTED] T0233.034

[GRAPHIC] [TIFF OMITTED] T0233.035

[GRAPHIC] [TIFF OMITTED] T0233.036

[GRAPHIC] [TIFF OMITTED] T0233.037

[GRAPHIC] [TIFF OMITTED] T0233.038

[GRAPHIC] [TIFF OMITTED] T0233.039

                                 <all>

</pre></body></html>
